                                 NATIONAL SCIENCE FOUNDATION
                                       4201 Wilson Boulevard
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL




  MEMORANDUM

  Date:             March 3,2008

  To:               Mary F. Santonastasso
                    Division Director, Division of Institution and Award Support
                    (BFAIDIAS)

                    Karen Tiplady
                    Division Director, Division of Grants and Agreements (BFAIDGA)

  From:             James .' N o      e t      h k ? w -
                    Deputy Associ     Inspe   r General for Audits

  Subject:          OIG Report Number 08- 1-004
                    Audit of Effort Reporting System, University of California - Berkeley

          Attached is the final report prepared by M. D. Oppenheim & Company, P. C., an
  independent public accounting firm, on the audit of the payroll distribution and effort
  reporting system used by the University of California, Berkeley (UCB) to support salary
  and wages charged to NSF grants. The University's comments to the draft report have
  been summarized after the recommendations for each audit finding and the auditor's
  response has been provided to these comments. The full text of the University's
  comments is included as Appendix B to the audit report.

          The audit found that UCB generally has a well established Federal grants
  management program. However, because the University has decentralized many of its
  grants management functions to the Academic Departments, UCB needs to improve its
  internal controls to ensure proper implementation and oversight of its labor effort
  reporting system. Without timely or appropriate controls for certifying labor effort
  reports, UCB has less assurance that the certifications are reliable and reasonably support
  salaries and wages charged to NSFYssponsored projects.

         We consider UCBYsinternal control procedural weaknesses identified in the audit
  findings to be significant. Accordingly, we request that your office work with the
  University and the cognizant audit agency, the Department of Health and Human
Services (DHHS), to develop a written Corrective Action Plan detailing specific actions
taken andlor planned to address each audit recommendation. Milestone dates should be
provided for corrective actions not yet completed.

        To help ensure the recommendations are resolved within six months of issuance
of the audit report pursuant to Office of Management and Budget Circular A-50, please
coordinate the development of the Corrective Action Plan with our office during the
resolution period. Each audit recommendation should not be closed until NSF, in
coordination with DHHS, determines that UCB has adequately addressed the
recommendation and proposed corrective actions have been satisfactorily implemented.
Please note that we have sent a copy of the audit report under separate cover to Jon D.
Crowder of DHHS-OIG.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards,
the Office of Inspector General:

       Provided a detailed audit program for the performance review and ensured M.D.
       Oppenheim's approach and planning for the audit was appropriate;
       Evaluated the qualifications and independence of the auditors;
       Monitored progress of the audit at key points by accompanying M.D. Oppenheim
       auditors onsite at the grantee;
       Held periodic meetings with M.D. Oppenheim to discuss audit progress, findings,
       and recommendations;
       Reviewed the audit report, prepared by M.D. Oppenheim, to ensure compliance
       with Generally Accepted Government Auditing Standards and the NSF Audit
       Program; and
       Coordinated issuance of the audit report.

        M.D. Oppenheim is responsible for the attached audit report on UCB's payroll
distribution and effort reporting system and the conclusions expressed in the audit report.
The NSF OIG does not express an opinion on the audit report's conclusions.

       We appreciate the cooperation that was extended to us during our review. If you
have any questions, please feel free to call me at 703-292-5005 or Jerel Silver at 703-292-
8461.

Enclosure

cc:    Gilbert Tran, Technical Manager, Office of Management and Budget
       Thomas Cooley, Director and Chief Financial Officer, BFAIOAD
       Alexander Wynnyk, Branch Chief, BFAIDIAS
       Charles Zeigler, Special Assistant, BFADIAS
Audit of Effort Reporting System

University of California, Berkeley
      Berkeley, California


     National Science Foundation
     Office of Inspector General


          February 29, 2008
            OIG 08-1-004




               Audit Performed by:
       M. D. Oppenheim & Company, P. C.
          Certified Public Accountants
        8403 Colesville Road, Suite 340
            Silver Spring, MD 20910
           FOR OFFICIAL USE ONLY

        REPORT RELEASE RESTRICTION
THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE
THE NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE
 APPROVAL BY THE NSF OFFICE OF INSPECTOR GENERAL.
    THE ONLY EXCEPTION IS AN AGENCY INVOLVED IN
  NEGOTIATING OR ADMINISTERING NSF AWARDS. THE
 INFORMATION IN THIS REPORT SHOULD BE TREATED AS
  CONFIDENTIAL AND MAY NOT BE USED FOR PURPOSES
  OTHER THAN ORIGINALLY INTENDED WITHOUT PRIOR
   CONCURRENCE FROM THE NSF OFFICE OF INSPECTOR
                     GENERAL.
                               EXECUTIVE SUMMARY

       This audit report provides the results of our review of the Payroll Activity Report
(PAR) system used by the University of California, Berkeley (UCB) to support salaries
and wages charged to National Science Foundation (NSF) awards. In fiscal year 2006,
UCB had total Federal sponsored projects of approximately $310 million, of which $89
million or 29 percent were funded by NSF. Of this amount, over $26 million or 29
percent were for labor costs directly charged to NSF awards. This audit is one of a series
of Office of Inspector General (OIG) reviews of the labor effort distribution systems
being conducted at NSF’s top-funded universities to assess the adequacy of internal
controls to ensure salary and wage costs claimed on NSF grants are properly managed,
accounted for, and monitored.

        Our review disclosed that UCB generally has a well established Federal grants
management program. However, because the University has decentralized many of its
grants management functions to the Academic Departments, UCB needs to improve its
internal controls to ensure proper implementation and oversight of its PAR system. Our
review of a sample of 30 employees,1 with total FY 2006 NSF salary charges of
$850,781, found that the PAR system did not always ensure that salary and wages
charged to NSF awards reasonably reflected actual work performed on the sponsored
projects. Without sufficient internal controls, we found that for 8 of the 30 employees
tested, representing 14 percent of the NSF salary charges reviewed, UCB (1) did not have
appointment letters documenting employee institutional base salary rates, (2) improperly
charged employee work activities not directly benefiting NSF grants, and/or (3) did not
have “suitable means of verification” documenting that the work effort charged was
actually performed.

        Furthermore, UCB needs to take aggressive actions to emphasize the importance
of timely and appropriate PAR certifications. The significant number of PARs not
certified until requested during the audit and reports with incorrect or missing approval
dates demonstrate the lack of priority UCB certifying officials have given to certification
of labor charges to Federally sponsored projects. Of the 56 PARs reviewed, 44 reports
(78 percent) were either certified late or had inadequate documentation to determine the
approval dates. Specifically, 16 reports (29 percent) were approved by UCB officials
only after being requested during the audit, (b) four reports (7 percent) were incorrectly
dated since the certification date was earlier than the PAR distribution date, and (c) eight
reports (14 percent) were missing approval dates.

        Without timely or appropriate controls for certifying labor effort reports, UCB has
less assurance that the certifications are reliable and reasonably support labor costs
charged to NSF’s sponsored projects. As a result, we identified that 12 percent
($103,637) of NSF salary charges were not supported by adequate documentation to
validate the reasonableness of actual employee labor effort devoted. Furthermore, UCB
inappropriately charged $15,543 (2 percent) for employee activities not directly

1
       The sample of 30 employees was statistically selected by a statistician engaged by the NSF-OIG.


                                                  i
benefiting the sponsored projects. The systemic nature of these control weaknesses raises
concerns about the reasonableness and allowability of the remaining $25 million in FY
2006 labor costs UCB charged to NSF grants and the labor portion of the University’s
$221 million of other Federal awards.

        These weaknesses occurred because UCB has not established adequate internal
controls for its PAR system given the University’s decentralized organizational structure
for grants management. UCB has not established detailed written guidance for all PAR
processes to ensure full compliance with Federal requirements, provided adequate
training to all staff involved in the PAR process, and performed adequate monitoring to
ensure all UCB Departments were complying with established PAR policies and
procedures. Furthermore, contrary to Federal standards, UCB has not performed an
independent internal evaluation to ensure that the PAR system was effective, forfeiting an
opportunity to identify and address needed improvements.

        To address these weaknesses, recommendations were made to improve UCB’s
internal control structure for PAR management and oversight. The recommendations
were primarily directed at the need for employee training to ensure that cognizant
Department and Academic staff fully understood their PAR responsibilities so that
established procedures were accurately and consistently implemented. Also, we
recommended enhanced UCB centralized monitoring of PAR processes be performed on
an ongoing basis to ensure Departments comply with established campus policies and
procedure. Finally, UCB needs to perform an independent evaluation of the PAR system,
as required by Federal regulations, to assess the quality of the system’s overall
effectiveness.

      A draft audit report requesting comments on the findings and recommendations
was issued to UCB. In general, the University agreed to implement the audit
recommendations and believed its new web-based Effort Reporting System will address
many of the control weaknesses identified in the audit findings.

        UCB’s comments were generally responsive to the audit recommendations. NSF
should work with the cognizant audit agency and/or UCB to ensure the University
develops an acceptable corrective action plan to resolve each recommendation. It is
essential for UCB to establish comprehensive written policies and procedures to clearly
define the role and responsibilities of all campus personnel involved in its new web-based
Effort Reporting System. Written policies and procedures are a critical element to a
sound UCB internal control structure.




                                            ii
                             Table of Contents


EXECUTIVE SUMMARY                                                     i

INTRODUCTION

   Background                                                         1
   Objectives, Scope, and Methodology                                 2

FINDINGS AND RECOMMENDATIONS

   1. Improvements Needed in the Payroll Distribution
      And Effort Reporting System                                     5

   2. Improvements Needed In Accurately Completing the Grant
      Proposal’s Current and Pending Support Section                  19

APPENDICES

   Appendix A-1   Schedule of FY 2006 Questioned Salaries and Wages   21

   Appendix A-2   Schedule of FY 2006 Salary Charges Not Supported
                  By Adequate Documentation                           22

   Appendix B:    Berkeley Response to Draft Audit Report             23


   ACRONYMS

   EFA            Extramural Funds Accounting Office
   NSF            National Science Foundation
   OIG            NSF Office of Inspector General
   OMB            U.S. Office of Management and Budget
   PAR            Personnel Activity Report
   PDS            Payroll Distribution System
   SPO            Sponsored Projects Office
   UCB            University of California, Berkeley




                                        iii
                                   INTRODUCTION

BACKGROUND

        Approximately one third of the National Science Foundation (NSF) award funds are
provided for salary and wages, amounting to about $1.3 billion annually at universities. Also,
in recent years, there have been several civil settlements involving overcharges of labor costs
to Federal grants, amounting to millions of dollars at several major universities, including
some funded by NSF. Because of these legal actions and the material amounts of labor costs
paid from NSF awards, the Office of Inspector General (OIG) is undertaking a series of
reviews of the labor effort distribution systems at NSF’s top-funded universities in order to
assess the adequacy of internal controls to ensure salary and wage costs claimed on NSF grants
are properly managed, accounted for, and monitored. This audit, involving the University of
California, Berkeley, is one of the planned reviews of such labor effort distribution systems.


        The University of California, Berkeley’s (UCB) fundamental missions are teaching,
research, and public service. Teaching and educating students occurs at all levels, from
undergraduate to the most advanced graduate level. Research is performed by some of the
world’s best researchers and brightest students in hundreds of disciplines. Furthermore,
through its public service programs and industry partnerships, UCB disseminates its research
results and translates scientific discoveries into practical knowledge and technological
innovations.    The University’s active involvement in public-school partnerships and
professional development institutes help strengthen the expertise of teachers and the academic
achievement of students in many communities. UCB’s total student enrollment for the fall
2006 semester consisted of 23,863 undergraduate and 10,070 graduate students. The number
of University staff included 1,953 faculty members and 6,455 other academic-type staff
(includes student assistants, researchers, academic administrators, and librarians).

        UCB derives the majority of its funding from sponsored research projects, student
tuition, and state subsidies. For fiscal year 2006, the total sponsored projects totaled
approximately $516 million, which included approximately $310 million from the Federal
Government, or 60 percent of total sponsored agreements. In addition, approximately $89
million, or 29 percent of Federally-sponsored projects awards, were provided by NSF.

        The University’s management and oversight of Federal grant programs is shared
between its Sponsored Projects Office (SPO) and the Extramural Funds Accounting Office
(EFA). Primarily, SPO is tasked with pre-award grant activities and ensuring UCB compliance
with Federal grant regulations and sponsoring agency requirements. As such, SPO develops
UCB policies and procedures for Federal grants management and is charged with
implementing appropriate training programs. EFA is responsible for financial administration
and monitoring of active Federal awards. Specifically, it is responsible for compiling and
distributing the Personnel Activity Reports (PAR) to all Academic Departments to provide for
the certification of actual work effort devoted to Federally-sponsored projects.



                                              1
       Within each Academic Department, senior grants administrative officials are tasked
with the management and oversight of sponsored projects to ensure compliance with Federal
and University policies and procedures. Such officials typically assist and advise faculty
members with the management of Federal grants and are responsible for ensuring that awards
and their budgets are created accurately in the University’s financial system; award
expenditures are monitored on a monthly basis; and charges to Federal awards are appropriate.
They also ensure PIs confirm the reasonableness of employee salary charges on their PARs.
However, PIs have primary responsibility for all aspects of Federally-sponsored projects
including approval of all charges and ensuring that the research is conducted in accordance
with the award terms and conditions.

OBJECTIVES, SCOPE AND METHODOLOGY

       Audit Objectives. Our audit objectives were: (a) to evaluate whether UCB internal
controls are adequate to properly manage, account for, and monitor, and report salary and wage
costs on NSF grants in accordance with OMB and NSF grant requirements and (b) to
determine if salaries and wages charged to NSF awards are allowable, allocable, and
reasonable in accordance with Federal cost principles and NSF award terms and conditions.

       Scope and Methodology. The audit focused on UCB’s Personnel Activity Report
(PAR) system and accordingly reviewed internal controls for ensuring that labor costs charged
to NSF (i) were actually incurred, (ii) benefited NSF awards, (iii) were accurately and timely
recorded and charged to NSF, and (iv) were for allowable and allocable-type activities as
required by Federal and NSF requirements. In addition, we evaluated if the level of PI effort
pledged in grant proposal and award documents was actually contributed by the faculty
member to accomplish award objectives.

        To address each of these control objectives, the NSF-OIG engaged a statistician to
provide expert advice in selecting a statistical sample of employee salary records for testing.
The use of statistical tools and methodology will enable projecting our audit results to the
entire population of universities to be included in the planned reviews of payroll distribution
systems nationwide. However, due to the small statistical sample size of 30 employees tested,
we are not able to make any projections to the total UCB population of labor costs charged to
NSF grants. Specifically, the FY 2006 salary and wage costs for the 30 sample employees
tested amounted to $850,781 and were supported by 56 PARs. Our statistical sample was
derived from a total population of 1,994 UCB employees, who charged $26.1 million of
salaries to NSF grants during FY 2006. This population excluded (a) any employee with total
salary costs of $100 or less and (b) all salary charges for undergraduate students. These
amounts were excluded because of their small dollar value and the difficulty in locating
undergraduate students for personal interviews.


        We compared UCB’s policies and procedures to Federal and NSF requirements for
allocating labor costs to Federal awards and interviewed UCB personnel to gain an
understanding of the controls in place to ensure salary and wages charged to NSF awards were



                                              2
reasonable and allowable. For each statistically selected salary record, we obtained the
following documentation to determine whether labor costs UCB charged NSF awards met the
control objectives:


       •   PAR effort reports documenting 100 percent of each employee’s compensation
           allocated to sponsored and non-sponsored projects for each reporting period.

       •   Appointment letters or other documents supporting the approved annual salary for
           employees.

       •   Berkeley Accounting and Information Reporting System reports detailing the actual
           salary and wages charged to sponsored projects and other activities for each
           employee during each reporting period.

       •   Award documents to determine whether the grant had any terms and conditions that
           would affect allowable labor charges to the award.

        To ensure that salary and wage costs charged to NSF awards were incurred and
benefited NSF awards, we corroborated the information on PAR reports by interviewing the 30
sampled employees. We inquired whether (a) the labor charges documented were actually
incurred on projects and activities, (b) the approximate percentage of effort actually worked on
each sponsored project and/or activity was reasonably consistent with NSF labor charges, and
(c) the type of work performed on NSF projects was generally consistent with the scope of the
awards. We also interviewed selected administrative grants managers in Academic
Departments to determine procedures for processing and monitoring employee salary charges
to Federal grants. Additionally, we interviewed selected Principal Investigators (PI) to
determine the number of projects and personnel they were responsible for and their processes
for verifying work performance prior to approving and signing PAR effort reports.


        To confirm that faculty effort pledged in grant proposals was actually contributed to
accomplish grant objectives, we reviewed processes for reporting and tracking PI effort. We
reviewed award documents for all Federal grants that a faculty member worked on during FY
2006 to determine the effort pledged on each project and compared this proposed effort to the
approximate percentage of actual effort worked on the project. In addition, we determined
whether and how UCB tracked and documented PI effort on sponsored projects when no
faculty salary support was requested or reimbursed by the Federal Government.


       To determine whether labor costs were accurately recorded and charged to NSF, we
compared the amounts in appointment letters or other documentation supporting salaries and
wages paid to the amounts recorded in the Berkeley Accounting and Information Reporting
System for each individual in our selected sample. We recalculated salary and wage costs
charged to NSF projects by using the salary shown on supporting documentation and


                                               3
apportioning it by the period of time represented on the PAR effort reports. We also reviewed
labor transactions to determine whether UCB followed Federal, NSF, and University
requirements on charging labor costs to NSF projects.


       The audit determined whether UCB officials approved and signed effort reports in a
timely manner by comparing the date the PAR reporting period ended to the date the reports
were approved and signed. Timeliness was based on UCB’s internal policy requiring (i) a
2-month adjustment period to complete the closing process, (ii) a 1-month period for the
Extramural Funds Accounting Office to generate the PARs and distribute to the Academic
Departments, and (iii) an additional month for signature by a PI or other certifying official.


        Finally, we reviewed prior audit reports on UCB’s Federal grants management program
performed by OMB Circular A-133 auditors and the University’s internal auditors to determine
whether there were any audit findings and recommendations on labor effort reporting.
Specifically, we interviewed cognizant audit staff and reviewed the working papers, as needed,
to gain an understanding of the scope and procedures used in any audits of UCB’s payroll
distribution reporting system and/or University management of labor costs charged to Federal
projects. Review of the A-133 audit working papers is performed to ascertain the actual audit
scope and procedures used by the auditors in order to (i) preclude any duplicative audit work
and (ii) to determine the specific work performed on the labor effort reporting system.
Accordingly, we met with UCB’s A-133 auditors to discuss their overall audit scope and
procedures used for reviewing salaries and wages charged to Federal awards and the labor
effort reporting system.


        Onsite audit work at the UCB campus was performed for 2-week periods during
February and March 2007. The remainder of the audit work was completed through phone
interviews, emails, and documentation requests through October 2007. We were engaged to
perform the above audit objectives by the NSF-OIG and the audit was conducted in accordance
with the Comptroller General’s Government Auditing Standards and accordingly included such
tests of accounting records and other auditing procedures, as we considered necessary, to fully
address the audit objectives.




                                              4
                     FINDINGS AND RECOMMENDATIONS

1.   Improvements Needed in the Payroll Distribution and Effort Reporting System

        Federal grant requirements provide that salary and wage charges to sponsored projects
be supported by labor effort reports signed and approved by the employee or an official who is
in a position to know whether the work was performed. Such reports are required to represent
100 percent of an individual’s activity and provide an after-the-fact confirmation or
determination that the effort report reasonably represents the actual employee effort expended
on sponsored projects. Although Federal requirements do not specify when a labor effort
report should be completed, University officials should provide the after-the-fact confirmation
as close to the end of the reporting period as possible to ensure its reliability.

       Our review of 30 sampled employees, with total FY 2006 NSF salary charges of
$850,781, disclosed that UCB needs to improve its internal controls over its Personnel Activity
Report (PAR) system to ensure salary and wages charged to NSF awards reasonably reflect
actual work performed on the sponsored projects. Our review disclosed the following control
weaknesses:

       •   Four employees did not have appointment letters or employment contracts
           documenting the base salary rate used to charge NSF grants or charged the award
           for more than the amount supported by the appointment letter.

       •   Thirty-one of 56 PARs reviewed were certified 2 to 412 days late for 20 employees,
           representing 40 percent of total salaries tested. An additional 13 reports,
           representing 21 percent of NSF salary charges, were either not dated, dated prior to
           the PAR distribution date, or were missing.

       •   Three employees reported 10 to 20 percent less actual effort worked on NSF grants
           during interviews than the labor effort certified on their PARs.

       •   Two Department administrative employees inappropriately certified NSF labor
           charges for two employees without “suitable means of verification” to validate the
           reasonableness of the actual work performed.

       Without timely or appropriate controls for certifying labor effort reports, UCB has less
assurance that the certifications are reliable and reasonably support labor costs charged to NSF
awards. Specifically, the University did not have adequate documentation to validate the
reasonableness of 12 percent ($103,637) of actual salary costs charged by employees to meet
the objectives of the NSF projects (see Appendix A-2). In addition, UCB inappropriately
charged $15,543 (2 percent) for employee activities not directly benefiting the NSF projects
(see Appendix A-1). The systemic nature of these control weaknesses raises concerns about
the reasonableness and allowability of the remaining $25 million in FY 2006 labor costs
charged to NSF grants and the salary portion of UCB’s other $221 million of Federal awards.


                                               5
        These weaknesses occurred because UCB has not established adequate internal controls
to provide for proper administration and oversight of its payroll distribution and labor effort
reporting system. Given the decentralized nature of the University’s Federal grants
management program, it is essential that detailed written PAR procedures be established,
adequate training be provided to all staff involved in the PAR process, and better monitoring
processes be established to ensure all UCB Departments fully understand and comply with
established PAR procedures and processes. Furthermore, contrary to Federal standards, UCB
has not performed an independent internal evaluation to ensure that the PAR system was
effective, forfeiting an opportunity to identify and address needed improvements.

OMB Requirements for Labor Effort Reporting

        OMB Circular A-21, Cost Principles for Educational Institutions, requires certification
of labor effort/activity contributed by employees on Federal awards. Specifically, paragraph
J10.b. (2) states a payroll distribution system is required that will “…reasonably reflect the
activity for which the employee is compensated by the institution; and encompass both
sponsored and all other activities on an integrated basis.” Such a system must provide for
after-the-fact confirmation of employee activity by a responsible person with “suitable means
of verification that the work was performed.” The Circular also requires that the University
provide for periodic independent internal evaluations to ensure the payroll system’s
effectiveness and compliance with the Federal standards.

        Furthermore, Circular A-21 recognizes that each institution “should employ sound
management practices” in applying the Federal cost principles for charging costs on sponsored
projects and “must provide for adequate documentation to support costs charged to sponsored
agreements.”2 Thus, UCB is required to have appointment letters or similar documentation (1)
supporting an employee’s institutional base salary and (2) defining the various responsibilities
and activities for which the individual is being compensated. Procedures need to clearly
establish that only employee activities directly benefiting Federally-sponsored agreements are
allowed to be charged to such research projects.

        Consistent with the Circular A-21 requirement for “sound business management
practices,” OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organization,3 requires entities receiving Federal awards to establish and maintain internal
controls that are designed to reasonably ensure compliance with Federal laws, regulations, and
program compliance. Further, OMB Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, defines internal controls as a “process effected by an entity’s
management and personnel, designed to provide reasonable assurance regarding the
achievement of objectives in the following categories: (1) Effectiveness and efficiency of

2
         Paragraphs A.2.d. and A.2.e of OMB Circular A-21, Cost Principles for Educational Institutions.
3
         Section .21 of OMB Circular A-110, requires that a grantee’s financial management system provide for
“Effective control over and accountability for all funds, property, and assets. . . Written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with the provisions of the
applicable cost principles and terms and conditions of the award.”


                                                      6
operations; (2) Reliability of financial reporting; and (3) Compliance with applicable laws and
regulations.” Internal control is considered a major part of managing an organization and
comprises the plans, methods, and procedures used to meet missions, goals, and objectives.
Management sets the objectives, puts the control mechanisms in place, and monitors, and
evaluates whether the control is operating as intended. People are what make internal control
work, thus sufficiently trained personnel in an organization and clear job descriptions and
responsibilities are critical elements of a successful internal control program.

UCB’s Payroll Activity Report System

        Pursuant to the OMB requirements, UCB has established the PAR system to provide
for reporting and after-the-fact certification of the reasonableness of salaries directly charged
on sponsored projects and other activities on which an employee works. There are two
6-month PAR reporting periods and an additional reporting period for academic staff with
summer appointments.4 The Extramural Fund Accounting (EFA) office compiles and
distributes the PARs to all UCB Departments. In turn, cognizant Departmental officials
distribute the reports to PIs or certifying officials who are responsible for reviewing the PARs
for accuracy, making any necessary corrections, and returning signed reports to their
Departmental representative. UCB Departments are responsible for timely review and
certification of the PARs and maintaining the signed reports.

        Contrary to OMB requirements, UCB has not established adequate internal control
processes to ensure the PAR procedures and processes adequately document that salary and
wages charged to NSF awards reasonably reflected actual work performed. Specifically, (a)
the rate of employee compensation charged to Federal grants was not always adequately
documented; (b) after-the-fact certification of salary charges were significantly late; (c) work
activities not allocable to Federal grants were charged to NSF awards; and (d) documentary
evidence was missing to verify that “suitable means of verification” was used to validate the
reasonableness of Federal salary charges.

Institutional Base Salary for Employees Not Adequately Documented

         UCB did not have adequate controls to ensure that salary rates used for charging labor
costs to sponsored projects was appropriate and supported by adequate documentation. Our
review found that 4 of 30 sampled employees (13 percent) were either missing appointment
letters supporting their institutional base salary rates or charged NSF awards for more than the
amount supported by such appointment letters. Specifically, UCB was missing the
appointment letters for three employees, who charged $59,305 or 7 percent of their total FY
2006 salaries tested of $850,781. In addition, the institutional base salary recorded in the PAR
system was higher than the amount shown in supporting documentation for one other
employee, which resulted in NSF salary overcharges of $5,565. These four individuals
consisted of two faculty members, one post-doctorate scholar, and one graduate student; who
worked in three separate UCB Departments. The following table summarizes our results.

4
         UCB has a 6-month fall effort reporting period from July 1 thru December 31 and a 6-month spring
effort reporting period from January 1 thru June 30. In addition, there is a 4-month summer effort reporting
period for academic year professionals working on sponsored projects.


                                                     7
                        Employee Institutional Base Salary Not Supported
                                                              Salaries         Salary
                                                             Charged         Charges In
                                                NSF           Without         Excess of
                                               Salary       Appointment     Appointment
                     Position                 Charges         Letters          Letters
                     Post Doctorate           $37,077                             $5,565
                     Graduate Student          19,772          $19,772
                     Faculty or PI             33,395           33,395
                     Faculty or PI              6,138            6,138

                     Total                    $96,382          $59,305            $5,565

        For example, a xxxxxxxxxxxxxxxxxx split xxx time in FY 2006 working on two NSF
grants. The PAR allocated $ 37,077 to the two NSF grants, but this amount exceeded the
$31,512 institutional base salary specified in the individual’s appointment letter by $5,565.5
Furthermore, UCB was missing appointment letters for two faculty members with NSF salary
charges of $33,395 and $6,138. While the annual salary amounts used to compute the NSF
salary charges appeared consistent with documented salary amounts for other faculty members
reviewed, the documentation of each faculty member’s salary rate is essential because UCB
pay scales include several rates for faculty pay based on academic title, number of years in the
position, and the individual’s pay rate negotiated at the time of hire.

Certification of PARs Needs To Be More Timely

        Although Federal regulations do not specify when labor effort reports should be
reviewed and certified, UCB has established timeframes for PAR’s review and approval to
ensure a timely and reliable certification process. From the end of a reporting period, the
University has (i) a 2-month adjustment period for completing the closing process, (ii) a
1-month period to prepare and distribute the PARs to Departments, and (iii) an additional
month for certifying officials to review and sign the reports. Therefore, the PARs are required
to be certified within 4 months after a reporting period ends.

        However, for 31 of 56 PARs tested, representing $340,850 (40 percent) of labor costs
charged to NSF grants, UCB certifying officials did not approve the PARs within the
4-month certification period, and in 6 instances, took 11 to 14 months after the distribution
date to complete the certification. Furthermore, 16 of the 31 late PARs were certified only
after being requested during the audit, raising questions on whether these labor effort reports
would have ever been certified. For another 13 of the 56 PARs tested, representing $181,234
(21 percent) of labor charges to NSF awards, we could not determine whether the reports were
completed on time because eight reports were not dated, four reports were incorrectly dated
since the certification date was earlier than the date the reports were distributed to certifying

5
          The employee was not overpaid because only the annual salary amount in the PAR system used to
allocate labor charges to sponsored projects was overstated, not the salary rate in UCB’s payroll system.


                                                        8
officials, and one report could not be located. The following table summarizes the number of
days beyond the UCB 4-month certification period that officials took to review and approve
the PARs.

                       Number of Days Late Beyond Certification Period
                                               % of Late      Total    % Late
                     Days Late       # PARs      PARs        Salaries Salaries
                       2 -100           12        21%       $104,918     12%
                      101-200           11        20%         133,998    16%
                      201-300            2         4%          10,399     1%
                      301-400            3         5%          40,785     5%
                      401-412            3         5%          50,750     6%

            Not Certified Timely                31             55%          340,850          40%
                                          6
            Timeliness not determinable         13             23%          181,234          21%

            Subtotal                            44             78%          522,084          61%

            PARS Certified On-Time              12             22%          328,697          39%

            Total                               56           100%          $850,781       100%

        Timely approval of PARs is essential to ensure labor charges to NSF grants are reliable
because certifying officials are generally relying on their memory when approving reported
work activity for themselves and the individuals that work for them. UBC officials must
remember as far back as 10 months7 to confirm such employee activity. Many PIs have
multiple awards and many employees for whom they are responsible, which increases the risk
that the PI’s memory of the amount and type of activities performed will be less reliable as
time increases past the established certification period. Thus, limiting the review and
certification of PARs to the shortest amount of time possible helps ensure a more reliable
certification of labor costs associated with such activities on Federal awards.

PARs Certified for More Labor Effort Than Worked on NSF Awards

        Interviews of the 30 sampled employees found that the actual FY 2006 labor effort for
three employees on NSF sponsored projects was less than what was reported and certified on
their PARs, with deviations ranging from 10 to 20 percent. These differences were for
employee activities that did not directly benefit the NSF grants and totaled $9,978 of the NSF
salary charges reviewed. Specifically, while three employees charged 100 percent of their
salaries to NSF grants, (1) two employees stated that 10 percent of their effort was devoted to
6
          Of the 13 PARs, eight reports were not dated, one was missing, and four reports were dated prior to the
distribution date.
7
          For the semi-annual PARs, the amount of time certifying officials have to recall work activities is 10
months because the report covers 6 months; adjustments take 2 months, compilation and distribution takes about 1
month, and return is 1 month.


                                                       9
writing grant proposals and (2) the third person, a xxxxxxxxxxxxxx, stated that XX devoted 20
percent of xxx effort to mentoring students that was not directly associated with NSF grant
objectives.


                          Incorrect PAR Labor Effort Percentage
                                                        Questioned
                                         Number Of        Salary
                     Position            Individuals      Costs
                     Graduate Student         1         $     2,721
                     Other Professional       1               3,171
                     Post Doctorate           1               4,086

                     Total                          3            $    9,978


Certifying Official Had Insufficient Means of Verification

        UCB officials inappropriately approved the PARs for 2 of 30 sampled employees tested
without “suitable means of verification” to validate the reasonableness of the NSF salary
charges. Specifically, two Department administrative officials certified the PARs for two
employees, representing $64,104 (8 percent) of the total salaries reviewed, without having any
first hand knowledge of the work performed or obtaining any documentary evidence to
validate the NSF charges were for actual work performed on the sponsored projects.


                         No Verification that Work was Performed
                                                          Salaries
                                           Number of Charged to
                       Position            Individuals NSF Grants
                       Graduate Student         1       $     19,772
                       Other Professional       1             44,332

                       Total                        2        $       64,104


        Specifically, one administrative official stated that until xxx completed a training class
in recent months, xxx was not aware that Federal regulations required documentary evidence to
validate that “suitable means of verification” was used to certify the reasonableness of salary
charges to Federally-sponsored projects reported on PARs. Therefore, subsequent to the
training, she had the xxx xxx xxx xxx xxx xxx xxx re-certify the PAR for the FY 2006 labor
charges of $44,332 for the professional staff member. The re-certification was the appropriate
action to take, however, there is less reliance placed on such actions when the xxxxxxxxxx
xxxxxxx certification was performed over a year later.



                                               10
Potential Excess Labor Charges

        Without timely or appropriate controls for certifying labor effort reports, UCB can
provide less assurance to sponsoring agencies that PARs are reliable in reasonably supporting
salary and wages charged to sponsored projects. As discussed in the above report sections,
control weaknesses resulted in the University (1) not having adequate documentation to
support 12 percent ($103,637) of NSF salary charges for 4 of 30 sampled employees (see
Appendix A-2) and (2) overcharging $15,543 (2 percent) of salary charges to NSF awards for
activities of four employees not directly benefiting the sponsored projects (see Appendix A-1).
In addition, late PAR certification or inadequate documentation to determine PAR approval
dates for 61 percent of NSF salary charges reviewed increases the risk that such certifications
are not reliable, particularly given that 11 percent of such labor costs were certified more than
10 months late. The systemic nature of these control weaknesses raises concerns about the
reasonableness and allowability of the remaining $25 million of FY 2006 labor charges to NSF
grants as well as the salary portion of UCB’s other $221 million of Federal awards.

Factors Contributing to Effort Reporting Weaknesses

        These weaknesses occurred because the UCB has not established adequate internal
controls to provide for proper management and oversight of its payroll distribution and labor
effort reporting system to mitigate the risk of the University’s decentralized organizational
structure for Federal grants management. With each UCB Department primarily responsible
for management of its own portfolio of Federal grants, it is imperative for the University to
ensure that (i) detailed written PAR policies, procedures, and implementing guidance are
established, (ii) adequate training is provided to all cognizant personnel to ensure full
understanding of PAR processes, and (iii) monitoring of campus compliance is enhanced to
ensure proper implementation of the PAR policies and procedures. Furthermore, contrary to
Federal standards, UCB has not performed an independent internal evaluation to ensure that
the PAR system was effective and in compliance with Federal standards, thereby forfeiting an
opportunity to identify and address needed improvements.

•   Lack of Adequate Supporting Documentation for Institution Base Salary – UCB
    Department staff are responsible for data entry into the PAR system to distribute employee
    effort to sponsored agreements and to validate the institutional base salary amount used for
    such allocations. However, UCB officials realized that due to the complexity of the
    academic personnel compensation program, such data entry processes are not always
    clearly understood by Department individuals. As such, the personnel office performs
    periodic checks throughout the year to ensure the PAR data is correct. When ongoing data
    entry problems are identified in specific Units/Departments, individualized instruction is
    provided.

            However, the lack of adequate UCB documentation to support the institutional base
    salary rate used for charging labor costs to NSF grants for 4 of 30 (13 percent) sampled
    employees suggests that employees at both the Departments and the personnel office are
    not complying with established PAR procedures. As such, UCB needs to provide
    appropriate training to all personnel involved in the PAR process (1) to emphasize the



                                               11
    importance of maintaining appointment letters or similar documentation to support
    employee compensation rates used for charging labor costs to Federal awards and (2)
    explaining the process for correctly entering such salary amounts in the PAR system.
    Furthermore, the University needs to enhance its monitoring procedures to ensure the
    salary documentation issue is properly addressed and resolved, particularly given that UCB
    had already recognized this as an area in need of improvement.

•   Enhanced Monitoring And Clear Accountability Required to Improve Timeliness of PAR
    Certification – While the Extramural Funds Accounting (EFA) office has issued
    appropriate UCB policies establishing timeframes for the various phases of compiling,
    distributing, and certifying PARs, it has not established any monitoring processes or
    controls to ensure PAR certifications are timely and/or actually completed. This occurred
    because UCB has decentralized many of its Federal grants management functions to the
    Departmental level. As such, after EFA compiles and distributes the PARs, each
    Department is responsible for timely review and approval and for maintaining the certified
    reports. However, EFA has not established any reporting or monitoring processes for
    ensuring that the Departments are complying with the 1-month turnaround time for PAR
    review and approval and/or whether all PAR certifications are actually being completed.
    While UCB’s Internal Audit Office has reported PAR timeliness issues over the years, such
    audit reports are directed only to Department officials for corrective action. Thus, EFA has
    not been made fully aware of the pervasiveness of the PAR timeliness issues on the UCB
    campus.

            In addition, UCB did not hold senior management officials, such as Department
    Chairs, accountable for timely completion of PARs. Such senior officials (i.e. Department
    Chairs) would have more leverage than Department grant administrative staff or EFA
    personnel in ensuring PIs review and certify PARs in a timely manner. Because such
    senior officials would have the responsibility for securing and retaining staff and faculty
    members and recommending tenure and promotions, they would have more influence in
    getting PIs to respond positively to the requirement for completing PARs within the
    certification period.

            Currently, UCB is in the process of developing a new automated payroll
    distribution system to improve its PAR process. The new system will allow certifying
    officials to review and certify the PARs online. Therefore, UCB officials believe the time
    period to certify the reports should be shortened since the PARs will no longer be required
    to be physically distributed to the Departments. Also, officials noted that the new
    automated system should assist the University in monitoring the timely certification of the
    PARs because the system will be more transparent for both Department and central staff,
    and timeliness issues can be more readily identified for prompt resolution.

            While we agree that the automated system should allow for easier monitoring of
    PAR timeliness, it is essential that UCB assign monitoring responsibility to a specific
    central University office and ensure that formal monitoring processes and procedures be
    established. Such a monitoring process should include periodic reminder notices for late
    PARs using an increasingly graduated scale to higher levels of UCB management officials,



                                              12
    such as the Department Chair, the Dean, and the Provost, as the period of delinquency
    increases. Also, senior management needs to explicitly notify all employees involved with
    the PAR process of the magnitude of the PAR timeliness issues and emphasize the
    importance of timely certification. Furthermore, we do not see the issue being resolved
    until UCB holds senior management officials accountable for timely PAR completion.
    Even though University internal auditors have repeatedly identified untimely PAR
    certifications in audit reports, the problem continues unresolved largely because of the lack
    of clear and enforceable accountability.

•   Better Understanding of Certification Responsibilities Will Preclude Salary Overcharges
    to Federal Awards - Certifying officials approved PARs reflecting more labor effort than
    actually worked on NSF awards because they did not have a clear understanding of
    employee activities not directly benefiting NSF projects. Due to the lack of detailed UCB
    guidance delineating work activities included in employees’ institutional base salary and
    the lack of training to ensure that certifying officials clearly understood PAR certification
    responsibilities, certifying officials did not appropriately consider all of an employee’s
    work activities and whether such activities were allowed to be directly charged to Federal
    grants. Explicit written guidance and training classes are essential to delineate the various
    classes of employees charging salaries to sponsored projects, their different job activities
    related to instruction, research, and general administration; and which of those activities
    should be charged to University funds versus Federal grant funds. Without such guidance
    and knowledge, certifying officials did not take the necessary steps to carefully consider all
    employee activities, particularly administrative type tasks, when approving PARs for their
    employees

            Similarly, the lack of appropriate training also resulted in two administrative
    officials inappropriately certifying PARs because they were not aware that documentary
    evidence was required to provide “suitable means of verification” that the reported labor
    effort was actually performed. Without proper training, these individuals did not know that
    Federal regulations required a certifying official to have first hand knowledge of the
    employee’s actual research activities in order to properly validate the reported labor effort.
    Discussions with six Department administrative employees disclosed that only one
    individual had received any UCB labor effort training. Furthermore, UCB policy did not
    define the specific steps an administrative official should take to obtain adequate
    documentation to demonstrate that “suitable means of verification” was used to certify the
    PAR’s reported labor effort.

Independent Internal Evaluation of the Payroll Distribution System Was Not Performed

        Contrary to OMB Circular A-21 requirements, UCB did not conduct an independent
evaluation of its payroll distribution and effort reporting system. Such evaluations would have
likely disclosed the lack of sufficient internal controls for proper management and oversight of
its PAR system given the decentralized nature of UCB’s Federal grants management program.
An evaluation could have identified that there was a lack of adequate campus compliance with
essential components of established PAR policies and procedures and recommend
development of appropriate corrective actions to address the weaknesses identified. In



                                               13
particular, it will be essential for UCB to conduct such an independent evaluation of its new
automated payroll distribution system when it becomes operational to ensure its effectiveness
and compliance with Federal standards.

        While UCB officials were aware of the Circular A-21 evaluation requirement, they
believed that the annual OMB Circular A-133 audit included such an evaluation and met the
requirement. However, we determined that the A-133 audit did not evaluate the PAR system
in sufficient detail to fulfill the Federal evaluation standard for ensuring the system’s
effectiveness in meeting the OMB Circular A-21 requirements. Also, we concluded that
reviews of various components of the UCB payroll system performed by its Internal Audit
Office also did not fulfill the Federal evaluation requirement. Specifically, the subject audits
were not a comprehensive systemically focused review of UCB’s payroll distribution and
effort reporting system. Rather, one review was based on a questionnaire that identified
excessive delays between the required and actual production dates of the PARs, which was
corrected prior to our audit. In addition, as previously discussed, the Internal Audit Office also
evaluated the timeliness of PAR certifications at various UCB Departments.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to implement the following recommendations:

1.1     Work with the UCB officials to establish an internal control structure that provides for
a payroll distribution system that reasonably reflects the actual effort/activity employees
devote on sponsored projects. At a minimum, UCB should take the following corrective
actions:

a. Ensure all appointment letters or similar documents supporting employee institutional base
   salary are maintained in the official Human Resources files for all employees.

       UCB Response

       UCB agreed to remind Departments of the requirement to maintain appointment letters
       or other documentation supporting employee salaries in its files after Departmental
       Human Resources personnel enter such salary amounts in the campus payroll system.

       Auditors’ Comments

       While it is appropriate for UCB to remind Departments to maintain supporting
       documentation for employee salaries in its files, each employee should have an official
       personnel file maintained by UCB’s central Human Resources Office. Therefore, we
       reaffirm our audit recommendation.




                                               14
b. Ensure all employee institutional base salaries are accurately recorded in the PAR system.

       UCB Response

       In December 2007, UCB initiated implementation of a new web-based Effort Reporting
       System (ERS) that uploads employee salaries directly from the campus payroll system
       (PPS). The PPS salary information is entered by Departmental Human Resources
       personnel based upon appointment letters or other supporting documents. Mandatory
       training will be required to be completed by any campus personnel with administrative
       ERS responsibility in order to gain access to the system.

       Auditors’ Comments

       Once implemented, UCB’s actions should address our audit recommendation.

c. Require the University’s Departments to monitor the timely completion of PARs by
   certifying officials within the UCB established 1-month turnaround time.

d. Require the Extramural Funds Accounting (EFA) office to monitor the PAR certification
   processes at the Department level to ensure adequate procedures are in place to eliminate or
   materially reduce the number of PARs completed late. Such monitoring procedures should
   include periodic reminder notices to follow-up on late PARs using an increasingly
   graduated scale to higher level management officials.

e. Assign appropriate UCB senior management officials, such as Department Chairs, specific
   accountability for timely PAR certifications.


        UCB Response

       UCB noted that the new web-based ERS has added compliance and monitoring
       capabilities to permit tracking of PAR certifications on a campus-wide basis to ensure
       more timely review and approval. The system will automatically remind PIs and other
       certifiers (i) before the end of the certification deadline for any un-certified reports and
       (ii) after the end of each certification period for overdue reports. Such PAR monitoring
       information will be accessible to the Effort Report Coordinators in each UCB
       Department, EFA, Control Units, and Department Heads.

       Auditors’ Comments

       Once fully implemented, the enhanced ERS monitoring capabilities should significantly
       improve the timeliness of PAR certification within the 1-month turnaround time.
       However, written procedures need to be established to clearly define the monitoring
       roles and responsibilities of the Effort Report Coordinators in each UCB Department
       and EFA for timely PAR certification. Additionally, such procedures should clearly



                                               15
       designate a specific senior-level UCB management official to be held responsible for
       timely PAR certifications.

f. Develop clear written procedures and guidance defining the typical instructional, research,
   and administrative work responsibilities included in the institutional base salary for various
   types of UCB employees and which of those activities do not directly benefit and should
   not be charged to Federal awards.

        UCB Response

       UCB management will review and update existing guidance defining typical
       instructional, research, and administrative responsibilities included in the institutional
       base salary for various types of UCB employees. This guidance will be referenced in
       future communications and training for faculty and Departmental personnel.

       Auditors’ Comments

       Once implemented, UCB’s actions should address our audit recommendation.

g. Define what steps an administrative official should perform to document that “suitable
   means of verification” was used to certify PARs and require that such documentation be
   maintained in award files.

       UCB Response

       EFA will work with Departmental representatives to provide guidelines and document
       that “suitable means of verification” are used to certify employee effort when the
       authorized PAR certifier does not have first hand knowledge of the work performed.
       UCB will require such documentation be maintained in Departmental award files.

       Auditors’ Comments

       UCB’s proposed actions are responsive to the audit recommendation. However, it is
       important that any EFA guidelines developed be documented as formal written
       procedures to ensure all campus personnel understand and follow the required steps.

1.2    Require UCB to establish a formal requirement and conduct an independent evaluation
of the PAR system to ensure its effectiveness and full compliance with Federal, NSF, and
University standards. Such a requirement should include procedures to ensure an effective and
systemic review that will identify reasons for any deficiencies and make appropriate
recommendations, identify the specific office responsible for performing the evaluation, and
how often such an evaluation should be conducted.




                                               16
       UCB Response

       UCB’s Internal Audit will periodically perform independent comprehensive reviews of
       the ERS to ensure compliance with Federal and NSF requirements. In general, such
       reviews will be conducted on a three-year cycle and will include evaluating the status
       of UCB corrective actions taken to implement any prior audit recommendations
       addressing labor effort reporting.

       Auditors’ Comments

       UCB’s proposed actions are responsive to the audit recommendation. However, UCB
       needs to establish a formal written requirement for the independent internal evaluation
       as specified in the audit recommendation.

1.3     Work with the UCB officials to ensure that an adequate labor effort training program is
established and provided to all officials involved in PAR process. Such training should include
a thorough discussion of PAR certification responsibilities/requirements and the various types
of employee activities that that do not directly benefit and should, therefore, not be charged to
Federal awards.

        UCB Response

       UCB has provided campus-wide training sessions on labor effort reporting for faculty
       and Department personnel as part of its recent ERS implementation. Any campus
       personnel with administrative ERS responsibility will be required to successfully
       complete mandatory training in order to gain access to the system to perform required
       responsibilities.

       Auditors’ Comments

       When fully implemented, UCB’s proposed actions should address the audit
       recommendation.

1.4     Ensure senior UCB management formally notify all campus staff involved in the PAR
certification process of the magnitude of the late certification issue and emphasize the
importance of timely PI review and appropriate certification of such reports within the 1-month
UCB established time frame.

       UCB Response

       UCB is updating all training materials and written policies and procedures to ensure all
       campus personnel involved in the labor effort reporting process are aware of the
       consequences of late certification and the importance of compliance with Federal
       regulations.




                                               17
       Auditors’ Comments

       Once implemented, UCB’s proposed actions should address our audit recommendation.

1.5     Resolve the $15,543 in total questioned salary costs (see Appendix A-1) resulting from
improper charges for employee activity not directly benefiting NSF grants and salary rates
greater than amounts supported by employee appointment letters.

       UCB Response

       UCB has requested additional details on the questioned costs by each sampled
       employee to enable an appropriate evaluation. In addition, UCB has requested an
       additional 60 days to provide their comments.

       Auditors’ Comments

       Requested details on the $15,543 of questioned costs by each individual employee have
       been provided to UCB. NSF’s Office on Institution and Award Support will work with
       UCB to resolve the subject questioned costs.




                                             18
2.    Improvements Needed In Accurately Completing the NSF Grant Proposal’s
      Current and Pending Support Section

        The NSF Grant Proposal Guide8 (GPG) requires identification of all projects and
activities requiring a portion of the PI’s time. The faculty member must report the person-
months committed to each current and pending research project including the proposed award,
regardless of the source of funding (e.g. Federal, State, public or private foundations, industrial
or other commercial organizations, etc.) or whether any salary support is received from the
sponsored projects. Such information is used by NSF in determining the reasonableness of the
PIs time to be provided to the proposed NSF project in light of the faculty member’s existing
commitments to other research activities.

        Contrary to the GPG requirements, UCB did not always properly report PI effort
actually committed to research projects and activities in the Current and Pending Support
information required to be submitted with NSF grant proposals. Specifically, we determined
that 3 of 6 PIs included in our sample did not accurately report the person-months committed
to NSF projects in their proposal submission. Two PIs did not include the person-months
committed for three current NSF grants and the third PI incorrectly reported the committed
months for one NSF grant. Without complete and accurate information on all ongoing or
pending research projects and activities, NSF officials could not evaluate whether the
individual had adequate time to devote to the newly proposed project in relation to the
individual’s other time commitments.

        This occurred because UCB did not have a policy requiring the Sponsored Projects
Office (SPO) to review the Current and Pending Support section of the NSF grant proposal
prior to submission. Furthermore, there was no specific training provided to SPO grant
managers, PIs, and Department grants administrative staff on the NSF requirement and the
process to be followed for completing such information for NSF grant proposals.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, implement the following
recommendations:

2.1    Require UCB to revise its policy to ensure that PI committed person-months is
accurately recorded for all research projects and activities in the Current and Pending Support
information submitted in grant proposals as required by the NSF’s Grant Proposal Guide.




8
         Chapter II, Paragraph C.2.h of the NSF Grant Proposal Guide, (GPG) dated July 2005. In early 2007,
NSF incorporated the GPG into its new Proposal and Award Policies and Procedures Guide, with the subject
provision for “Current and Pending Support” information remaining the same.


                                                     19
       UCB Response

       UCB will revise its policy to include the review of PI committed person-months in the
       NSF’s Current and Pending Support section as a component of SPO’s administrative
       review of all aspects of UCB proposals prior to submission to Federal sponsoring
       agencies. Also, in December 2007, UCB revised its software program to start
       recording PI person-months commitments included in all extramural proposals.

       Auditors’ Comments

       Once UCB’s written policies are revised and implemented, the proposed actions should
       fully address our audit recommendation.

2.2    Ensure that UCB provides training to SPO grant managers, PIs, and Department grants
administrative personnel on the process to be followed for accurately completing the Current
and Pending Support section of NSF grant proposals.

       UCB Response

       UCB’s Office of Research Administration and Compliance (RAC) has prepared an
       in-depth curriculum to train SPO personnel and Departmental research administrators
       on the reporting requirements for PI committed effort in Current and Pending Support
       section of Federal grant proposals. RAC plans to initiate such training during this
       academic year. In addition, as part of its outreach to UCB faculty and academic units,
       RAC will similarly focus on discussing such reporting requirements at various faculty
       meetings.

       Auditors’ Comments

       Once implemented, UCB’s actions should address the audit recommendation.




                                             20
                                                                            Appendix A-1

                 Schedule of FY 2006 Questioned Salaries and Wages

                Actual NSF Labor Effort Less Than Certified PAR Effort
Sample                                    Salary     Fringe     Indirect
Number         Award Number                Costs    Benefits     Costs                         Total
  29           Xxxxxxxxxxxx              $ 811        $ 97      $ 236                         $ 1,144
  29           Xxxxxxxxxxxx                 3,275         386        952                        4,613
  19           Xxxxxxxxxxxx                   265           8        142                          415
  19           Xxxxxxxxxxxx                 2,456          57      1,307                        3,820
  14           Xxxxxxxxxxxx                 3,171       1,204      2,275                        6,650

               Subtotal9                             9,978          1,752         4,912        16,642

     NSF Salary Charges Greater Than Salary Documented In Appointment Letters

Sample                                             Salary        Fringe        Indirect
Number         Award Number                        Costs        Benefits        Costs           Total
  20           Xxxxxxxxxxxx                         2,796            340         1,454           4,590
  20           Xxxxxxxxxxxx                         2,769            337         1,440           4,546

               Subtotal10                            5,565            677         2,894          9,136

TOTAL QUESTIONED COSTS                            $15,543        $ 2,429       $ 7,806        $25,778




9
          Employee salaries and wages, fringe benefits and the associated indirect costs due to PARs being
certified for more labor effort than actually worked on NSF awards (see pages 9 - 10).
10
          Employee salaries and wages, fringe benefits and the associated indirect costs due to employee’s
institutional base salary being recorded in the PAR at more than the amount shown on appointment letters or
similar support documents (see pages 7 - 8).


                                                    21
                                                                  Appendix A-2


             Schedule of FY 2006 NSF Salary Charges Not Supported
                          By Adequate Documentation

                                    A               B                   C                 D
                                                No Suitable
                               No Suitable     Means and No           No
 Sample                         Means of       Appointment        Appointment Total For Each
 Number Award Number           Verification       Letter            Letter      Employee

    2       Xxxxxxxxxxxx             $44,332                                              $44,332

    7       Xxxxxxxxxxxx                                                    $6,138            $6,138

    10      Xxxxxxxxxxxx                                $17,973
    10      Xxxxxxxxxxxx                                 $1,799                           $19,772

    21      Xxxxxxxxxxxx                                                   $7,895
    21      Xxxxxxxxxxxx                                                  $25,500         $33,395

                Total                $44,332            $19,772           $39,533        $103,637

Notes:

1. No Suitable Means of Verification: Columns A and B total $64,104 and represent the labor
costs supported by PARs for two employees with no “suitable means of verification” to validate
that the work charged was actually performed.

2. No Appointment Letters: Columns B and C total $59,305 and represent the labor costs for
three employees without appointment letters or other documentation supporting the individual’s
annual UCB salary.




                                              22
             Appendix B


Berkeley Response to Draft Audit Report




                 23
24
25
26
27
28
